<html>
<title> - REAUTHORIZATION OF THE BEACHES ENVIRONMENTAL ASSESSMENT AND COASTAL HEALTH ACT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  REAUTHORIZATION OF THE BEACHES ENVIRONMENTAL ASSESSMENT AND COASTAL 
                               HEALTH ACT

=======================================================================

                                (110-59)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 12, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
36-690                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)

  
?

            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

GENE TAYLOR, Mississippi             RICHARD H. BAKER, Louisiana
BRIAN BAIRD, Washington              JOHN J. DUNCAN, Jr., Tennessee
DORIS O. MATSUI, California          WAYNE T. GILCHREST, Maryland
JERRY F. COSTELLO, Illinois          VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
BRIAN HIGGINS, New York              GARY G. MILLER, California
RUSS CARNAHAN, Missouri              ROBIN HAYES, North Carolina
JOHN T. SALAZAR, Colorado            HENRY E. BROWN, Jr., South 
MAZIE K. HIRONO, Hawaii              Carolina
HEATH SHULER, North Carolina         TODD RUSSELL PLATTS, Pennsylvania
HARRY E. MITCHELL, Arizaon           BILL SHUSTER, Pennsylvania
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
STEVE KAGEN, Wisconsin               CONNIE MACK, Florida
JERRY MCNERNEY, California           JOHN R. `RANDY' KUHL, Jr., New 
ELEANOR HOLMES NORTON, District of   York
Columbia                             CHARLES W. BOUSTANY, Jr., 
BOB FILNER, California               Louisiana
ELLEN O. TAUSCHER, California        JEAN SCHMIDT, Ohio
MICHAEL E. CAPUANO, Massachusetts    CANDICE S. MILLER, Michigan
GRACE F. NAPOLITANO, California      THELMA D. DRAKE, Virginia
MICHAEL A ARCURI, New York           JOHN L. MICA, Florida
JAMES L. OBERSTAR, Minnesota           (Ex Officio)
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Bilbray, Hon. Brian P., a Representative in Congress from the 
  State of California............................................     6
Dias, Mara, Water Quality Coordinator, Surfrider Foundation, San 
  Clemente, California...........................................    22
Gold, Mark, Executive Director, Heal the Bay, Santa Monica, 
  California.....................................................    22
Grumbles, Hon. Benjamin H., Assistant Administrator for the 
  Office of Water, U.S. Environmental Protection Agency, 
  Washington, D.C................................................     8
Heaney, Hon. Patrick Skip, Town Supervisor, Southampton Town 
  Board, Southampton, New York...................................     8
Jackson, Hon. Lisa, Commissioner, New Jersey Department of 
  Environmental Protection, Trenton, New Jersey..................     8
Mittal, Anu K., Director, Natural Resources and Environment, 
  Government Accountability Office...............................    22
Pallone, Jr., Hon. Frank, a Representative in Congress from the 
  State of New Jersey............................................     4
Stoner, Nancy, Director, Clean Water Project, Natural Resources 
  Defense Council................................................    22

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Baker, Hon. Richard H., of Louisiana.............................    34
Bilbray, Hon. Brian P., of California............................    38
Costello, Hon. Jerry F., of Illinois.............................    41
Mica, Hon. John L., of Florida...................................    43
Mitchell, Hon. Harry E., of Arizona..............................    45
Pallone, Hon. Frank, of New Jersey...............................    47

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Dias, Mara.......................................................    50
Gold, Mark.......................................................    56
Grumbles, Hon. Benjamin H........................................    58
Heaney, Patrick A................................................    72
Jackson, Lisa P..................................................    79
Mittal, Anu K....................................................    82
Stoner, Nancy....................................................    99

                       SUBMISSIONS FOR THE RECORD

Grumbles, Hon. Benjamin H., Assistant Administrator for the 
  Office of Water, U.S. Environmental Protection Agency, 
  Washington, D.C., Report of the Experts Scientific Workship on 
  Critical Research Needs for the Development of New or Revised 
  Recreational Water Quality Criteria, draft executive summary...   106

[GRAPHIC] [TIFF OMITTED] T6690.001

[GRAPHIC] [TIFF OMITTED] T6690.002

[GRAPHIC] [TIFF OMITTED] T6690.003

[GRAPHIC] [TIFF OMITTED] T6690.004

[GRAPHIC] [TIFF OMITTED] T6690.005



HEARING ON REAUTHORIZATION OF THE BEACHES ENVIRONMENTAL ASSESSMENT AND 
                           COASTAL HEALTH ACT

                              ----------                              


                         Thursday, July 12 2007

                  House of Representatives,
    Committee on Transportation and Infrastructure,
           Subcommittee on Water Resources and Environment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson [chairman of the subcommittee] presiding.
    Ms. Johnson. I call the Subcommittee to order.
    Today, we meet to gather diverse opinions and expert 
analysis on reauthorization of the Beaches Environmental 
Assessment and Coastal Health Act or the BEACH Act. First 
signed into law October 2000, the BEACH Act has provided 
States, local governments and tribes funding for the 
assessment, analysis and public notification programs that 
monitor our coastal waters.
    Although each beach and each coastal or Great Lakes 
shoreline may look pristine, the water quality may be unsafe 
for human contact. The BEACH Act sought to advance three 
separate goals: making beach water quality monitoring 
mandatory, making water quality criteria universal and making 
sure that the public was well informed on the quality of water 
that they would be using for swimming, fishing or other 
recreational activities.
    Our Country's beaches are far from insignificant. With over 
28,000 miles of coastal and Great Lakes shoreline, over 150 
million tourists each year seek out a spot on a beach for 
recreational purposes. At a time when parents bemoan that their 
children are too focused with computers, video games and 
television to get proper outside exercise, beaches provide lush 
scenery and draw people of all ages to the shore for water 
sports, boating, birdwatching and relaxation.
    Without monitoring the quality of water, however, our 
Country faces sizeable public health concerns. Waterborne 
pathogens and bacteria can cause illness to all who make 
contact with the water. Children and the elderly are especially 
susceptible to the sore throats, severe infections, meningitis, 
hepatitis that come from swimming, fishing or boating in 
polluted water. Each beach visitor should be informed that risk 
could be involved if they choose to immerse themselves in 
water.
    By authorizing nearly $62 million in grant funding from 
2001 to 2007 to all 35 States with coastal or Great Lakes 
shoreline, the BEACH Act has supported universal criteria for 
beach monitoring assessments and public notification programs.
    Although we have made great strides in protecting the 
public from unsafe waters, the programs have been far from 
perfect. A GAO report that was released several weeks ago 
reported that the Environmental Protection Agency has not 
completed the pathogen or human health studies that were 
required by the Act nor has it published a new or revised water 
quality standard.
    In addition, the BEACH Act grants have not been disbursed 
by needs as one would think would be the most efficient. 
Monitoring varies by beach and by State, and State and local 
officials informed the GAO that they do not have enough funding 
to address contamination sources.
    Three of our colleagues have introduced various takes on 
the reauthorization of the BEACH Act this Congress. My 
colleague from the Committee, Congressman Bishop, as well as 
Congressman Pallone and Congressman Bilbray, each has taken a 
keen interest in trying to find the most viable solutions to 
protecting our shore waters. I appreciate your efforts.
    I welcome the witness panel today and look forward to your 
testimony.
    I now ask the gentleman from Louisiana for a statement.
    Mr. Baker. Thank you, Madam Chairman. I appreciate your 
willingness to call this hearing and direct attention to this 
most important matter.
    Preservation of recreational assets is extremely important 
and the numbers of individuals who press to the coast or to 
inland river beaches across the Country are enormous. 
Monitoring and taking action to correct or notify individuals 
of potential hazards is an extraordinarily important activity 
for this Congress to authorize.
    Certainly, technology enables us to do more in a more cost-
efficient manner than ever possible, but clearly there is much 
work to be done. Distribution of the grants on a rational basis 
is certainly a high priority of this Committee's work.
    I look forward to hearing from the distinguished panel of 
witnesses we have scheduled for the afternoon and certainly 
from our colleagues who have keen and direct interest in this 
matter who I am sure will bring their own area of expertise to 
the subject.
    With that, I yield back, Madam Chair.
    Ms. Johnson. Thank you very much.
    The Chair now recognizes Mr. Bishop.
    Mr. Bishop. Thank you, Madam Chair, and thank you for 
holding this hearing and inviting these distinguished members, 
local elected officials including my good friend from the town 
of Southampton, the Supervisor Skip Heaney, and members of the 
environmental community.
    My district encompasses well over 300 miles of coastline, 
and I am very proud to represent some of this Country's most 
beautiful and popular beaches. Maintaining coastal health is an 
integral objective towards preserving the Nation's environment 
and sustaining the tourist economies of our States. The beach-
going public that flocks to our Nation's shores this summer 
reminds us that we deserve pristine waterways to enjoy with our 
families and the need to preserve them for future generations 
of Americans.
    The water quality monitoring and notification grants 
established in the BEACH Act have been absolutely necessary in 
protecting the health of beach-goers on our shores. Today, with 
this discussion, we can continue to assure the American public 
that preserving healthy shores is a priority of our 
environmental agenda.
    In the 109th Congress, with the help of Mr. Pallone and Mr. 
LoBiondo and others, I introduced legislation to reauthorize 
the BEACH Act for an additional four years. This legislation 
passed through this Committee, passed the House but stalled in 
the Senate.
    Earlier this year, I reintroduced similar legislation, H.R. 
723, with the help of Mr. LoBiondo, Mr. Bilbray and several 
other members of this Committee to renew the discussion of how 
we can continue to protect our Nation's beaches.
    After recent reports marked progress but raised questions 
about the implementation of the BEACH Act, it has become clear 
that further development of the BEACH Act is needed. That is 
why Mr. Pallone, the author of the original BEACH Act, and I 
decided to pool our resources to advance better legislation to 
fix problems and fund grant programs.
    Mr. Pallone will address the Committee shortly about how to 
fund the program for an additional four fiscal years and how to 
solve many of the obstacles and challenges that have become 
apparent as this program is implemented.
    Under the Clean Water Act, EPA is tasked with publishing 
water quality criteria that alerts officials to human health 
risks, setting a regulatory floor that States must meet. The 
original BEACH Act amended the Clean Water Act to require 35 
eligible States to update recreational water quality standards 
using EPA's 1986 model and authorizing $150 million to do so.
    The BEACH Act also required EPA to develop rapid pathogen 
tests by 2003 and publish new criteria by 2005, neither of 
which has been issued by the EPA.
    In the recent report released by the GAO on the BEACH Act, 
the EPA is criticized for failing to publish water quality 
criteria for pathogens and failing to meet the 2003 deadline 
for studies on pathogens and human health. This report makes it 
obvious that there are problems in need of a solution, and it 
is most likely not limited to the Great Lakes region but has 
national implications which is why I now support H.R. 2537.
    I hope my colleagues agree that the BEACH Act is an 
excellent example of an effective government program that 
benefits communities in every region of the Country and has 
yielded tremendous progress in restoring healthy shores.
    Madam Chairwoman, with your leadership and support, the 
Water Resources Subcommittee can ensure that beach visitors 
throughout the Country are assured that local governments have 
all of the resources they need to monitor recreational waters 
and alert the public of potential health hazards. To that end, 
I look forward to working with you and thank you for your 
consideration of our request.
    Thank you. I yield back the balance of my time.
    Ms. Johnson. Thank you very much, Congressman.
    Congressman LoBiondo.
    Mr. LoBiondo. Yes, Madam Chair, thank you very much. Thank 
you for holding this hearing today. I just have a very brief 
statement.
    Over 30 years ago, my home State of New Jersey became one 
of the first State's in the Nation to regularly test water 
quality in its over 300 public beaches and notify the public of 
disclosure. I am very proud that New Jersey's program became a 
model for the nationwide program that we set up under the Beach 
Act.
    Thanks to the BEACH Act, New Jersey has recovered over $1.4 
million to further strengthen their existing program. The 
grants are helping to protect the millions of people that visit 
our 127 miles of coastline every year and our $31 billion 
tourist industry.
    I am disappointed the Senate failed to pass our 
reauthorization of this critical program in the last Congress, 
but I look forward to working with you, Madam Chair, and the 
Committee to quickly move legislation to reauthorize and 
improve the BEACH Act.
    I thank you very much.
    Ms. Johnson. Thank you very much.
    We are pleased to have two very distinguished members for 
our first panel here this afternoon. First, we have the 
Honorable Frank Pallone, Jr. of New Jersey's Sixth 
Congressional District, and we have the Honorable Brian Bilbray 
of California's 50th Congressional District, who also appeared 
yesterday. From the way he described his problem, he will use 
every penny authorized if he can get it.
    We are pleased you were both able to make it this 
afternoon, and your full statements can be placed in the 
record. We ask that you try to limit your testimony to five 
minutes oral in a summary.
    We will continue to proceed in the order in which the 
witnesses are listed in the call of the hearing, and I will now 
recognize Congressman Pallone.

TESTIMONY OF THE HONORABLE FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairwoman Eddie Bernice Johnson. I 
really appreciate the fact that you are having this hearing 
today. This is obviously a bill that is very important to us 
and anyone who lives or works along the coast.
    I also want to thank our Ranking Member Baker as well.
    I want to specifically recognize Mr. Bishop from Long 
Island for his leadership on this issue. Our two offices have 
worked together in crafting what I believe is the most 
comprehensive beach protection legislation in our Nation's 
history.
    Our Nation's beaches are vital not only to residents of our 
coastal States but also for countless visitors who come to 
visit each year. In New Jersey alone, beaches are the primary 
driver of a tourism economy that provides nearly 500,000 jobs 
and generates $36 billion in economic activities for the State 
each year. I think the main thing is that we would like 
Congress to assure beach-goers that our Nation's beaches are 
clean and safe.
    Now the 2000 BEACH Act which has already been discussed, 
thanks to that, we have made major strides over the last six 
years. That Act helped us improve water quality testing and 
monitoring of beaches across the Country.
    The Act basically had three provisions: requiring States to 
adopt current EPA water quality criteria to protect beach-goers 
from getting sick, requiring the EPA to update these water 
quality criteria with new science and technologies to provide 
better, faster water testing and finally providing grants to 
States to implement coastal water monitoring programs.
    My home State of New Jersey used some of this grant money 
to become the first State to launch a real-time web site that 
notifies beach-goers of the state of our beaches.
    Now the bill that is before you, the Beach Protection Act, 
is basically an improvement over the 2000 Beach Act, and that 
is what Mr. Bishop and I had in mind when we introduced the 
bill. It would go further to ensure that beach-goers throughout 
the Country can surf, swim and play on clean and safe beaches.
    The legislation not only reauthorizes the BEACH Act grants 
to States through 2012, but it also doubles the annual grant 
levels from $30 million under the old authorization to a new 
level of $60 million annually. It also expands the scope of 
those grants from water quality monitoring and notification to 
also include pollution source tracking and prevention efforts.
    Most importantly, the legislation goes further on 
environmental standards than ever before by requiring tougher 
standards for beach water quality testing and communication. 
The bill requires that beach water quality violations are 
disclosed not only to the public but to all relevant State 
agencies with beach water pollution authority.
    Now I wanted to just stress the rapid testing methods. The 
new bill mandates the use of rapid testing methods by requiring 
the EPA to approve the use of testing methods that detect beach 
bathing water contamination in two hours or less. The problem 
is in the past it would take up to 48 hours after the test was 
done to get the results. Then the beach would be closed two 
days later, but in the meantime people would be swimming in 
contaminated waters.
    Then vice versa, when the testing showed that the beaches 
could be opened again, it would take two days before the 
beaches would be open even though they were safe for those two 
days. From a tourism point of view, obviously, that is not 
good.
    So we have been advocating for several years--I say myself, 
Mr. Bilbray, Mr. Bishop--that we use these new standards that 
basically test that would allow you to get the results in two 
hours or less. I don't have to tell you why that is a good 
thing.
    In addition, we are requiring each State receiving the 
BEACH grants to implement measures for tracking and identifying 
sources of beach water pollution, creating a public online 
database for each beach with relevant pollution and closure 
information posted and, third, ensuring that closures or 
advisories are issued shortly after the State finds coastal 
waters out of compliance with water quality standards or within 
24 hours of failed water quality tests.
    We are also holding States accountable by requiring the EPA 
Administrator to do annual reviews of grantees' compliance with 
the BEACH Act's process requirements. Grantees have one year to 
comply with the new environmental standards or they will be 
required to pay at least a 50 percent match for their grant 
until they come back into compliance.
    I just want to say in closing, this is a very important 
bill. I think it will make even further strides towards our 
goal of clean beaches, clean water, swimmable waters which, of 
course, has always been the goal of the Clean Water Act.
    Once again, I want to thank the Chairwoman and the Ranking 
Member and, of course, Mr. Bishop for holding this hearing and 
for putting this legislation together.
    I also don't want to fail to mention that one of your 
witnesses is Lisa Jackson who is our New Jersey Commissioner of 
the Department of Environmental Protection. She has been a 
leader on cleaning up the beaches, cleaning up coastal water 
quality and basically protecting our coastal areas. So I also 
appreciate the fact that you have her as one of your witnesses 
today.
    Thank you.
    Mr. Bishop. [Presiding] Mr. Pallone, thank you very much 
for your testimony.
    Mr. Bilbray.

 TESTIMONY OF THE HONORABLE BRIAN P. BILBRAY, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Bilbray. Thank you, Mr. Chairman.
    Mr. Chairman, first of all, let us talk about what is 
really important in this world.
    So, first of all, I would like to ask you to thank the 
Madam Chair for holding the hearing today rather than tomorrow. 
Because you are holding the hearing at this time, I will be 
able to be in the water, surfing in California at noon Pacific 
Standard Time tomorrow. Some people may think it is recreation. 
It is a cultural and religious mandate for those of us along 
the California coastline.
    Seriously though, I feel like I practically ought to pull 
up a chair here because we were here earlier this week, 
talking, Bob Filner and I, about the problems of international 
pollution and those relationships.
    In my neighborhoods where I grew up, for over 50 years, we 
have had posting of beaches. We have had the testing. Frankly, 
as a former mayor and county supervisor--and in California, the 
county supervisors are the ones who supervise the water quality 
testing along all the beaches in California--I just sort of 
took it for granted that everybody did that though I am 
reminded by my wife who is also, Mr. Baker, a native of New 
Orleans, that there are places where they don't dare test the 
water. The fact is it was just a shock for me when I came here 
to realize that the rest of the world didn't live up to that 
standard.
    Mr. Chairman, I just want to point out, now I think the 
history of the BEACH bill, I was privileged to be able to work 
with Mr. Pallone, Surfrider and other environmental groups at 
trying to do this cooperative effort of Federal and State 
agencies and local agencies, but the real success is dependent 
on the local communities being involved and integrated into 
this, and I think if you look at where things have not worked 
out with the BEACH bill, it has not been on those who were the 
county supervisors and those who were mayors. It has been that 
Washington never does quite live up to its expectations, and we 
have got to remember that if we are going to be successful in 
the future, it is through the cooperative effort of local 
communities who have the true vested interest at what happens 
on their beaches actually being empowered to the right thing 
and Washington being in a support mode, not necessarily in the 
direction mode on this. I really want to point that out very, 
very strongly.
    But let me say on the flip side is the real-time testing is 
essential. As the gentleman from New Jersey pointed out, it is 
actually worse than what some people think. In California, we 
do not hedge the bet. If there is an incident, if there is rain 
in California, we post our beaches immediately until the test 
comes out that it is clean. So what happens is the young 
people, those of us who are surfers, after a rain, we don't 
know if it is closed or not. The red signs are up, but we 
assume that it is probably still clean, that they are just 
being safe. So a lot of people go into the water with the red 
signs up because we do not have real-time testing. It takes 
about two to three days. That two to three days, if the signs 
are still up two or three days, then almost you start thinking, 
well, maybe it is polluted.
    We need to give credibility to those signs by having real-
time testing. I think that is an essential part of this. That 
is why I have asked that even in my district that we take a 
portion of these and actually do these tests and develop these 
tests to be able to have real-time detection. I think that is 
an essential part of this issue, so that when a red sign goes 
up, when the pollution sign goes up, those of us who are water 
users know that that really means that the test came up 
positive, not that the test might come up positive in three 
days. I think from the public health point of view, we cannot 
overstate how real-time testing is absolutely essential for the 
future.
    I think that with all the talk of bipartisan support and 
cooperative efforts, this bill is a good example that it was 
borne and bred of bipartisan cooperation. It grew in the 
environment of local, State and Federal cooperation. Keep that 
spirit, keep it moving, and I think we will be able to make 
sure that our children are protected and our beaches are clean.
    It is a nice thing for me as a legislator to see my son and 
daughter on the internet, checking out the surf on the internet 
rather than driving to beaches to look at it but also on the 
internet, being able to know what the water quality testing has 
been over a period of time, that the young people are making 
the internet and this information source part of their daily 
routine and enjoying our water resources. I think that is a 
great legacy that we can leave for the future.
    If we continue to work together, not just here in 
Washington but especially with those mayors and those county 
supervisors and those State officials who are actually going to 
be our agents in our neighborhoods, protecting our environment.
    I thank you for the time, Mr. Chairman.
    Mr. Bishop. Mr. Bilbray, thank you very much for your 
testimony.
    Mr. Pallone, thank you for your testimony. Our custom is to 
not ask members to stay for questioning so that you can get on 
with your day.
    Mr. Baird. Mr. Chairman, could I deviate from that custom 
for one moment?
    Mr. Bishop. Certainly.
    Mr. Baird. I would just ask Mr. Bilbray, you mentioned that 
surfing is religion. Do we have a religious symbol here in our 
presence.
    Mr. Bilbray. Yes, we do.
    Mr. Baird. I observe that we often get bored in hearings. 
This is the first time we have gotten a board in a hearing. We 
appreciate your testimony.
    [Laughter.]
    Mr. Bilbray. When you hear about in San Diego, we are 
having board meetings, it is usually out in the waves. We don't 
sit in them. We are not going to ask you to bow before our 
religious symbol this time, but thank you very much and I 
appreciate the chance to participate.
    Mr. Bishop. Thank you both very much.
    We will now move to the second panel.
    Our second panel this afternoon will consist of the 
Honorable Benjamin Grumbles, the Assistant Administrator for 
the Environmental Protection Agency's Office of Water and a 
frequent visitor to our Committee. We will next have the 
Honorable Lisa Jackson, Commissioner of New Jersey's Department 
of Environmental Protection, and finally we will have the 
Honorable Patrick Skip Heaney, supervisor of my home town of 
Southampton, New York.
    For each of you, we will place your full statements in the 
record, and we ask that you try to limit your verbal testimony 
to about five minutes.
    Mr. Grumbles, we will begin with you.

  TESTIMONY OF THE HONORABLE BENJAMIN H. GRUMBLES, ASSISTANT 
   ADMINISTRATOR FOR THE OFFICE OF WATER, U.S. ENVIRONMENTAL 
    PROTECTION AGENCY, WASHINGTON, D.C.; THE HONORABLE LISA 
 JACKSON, COMMISSIONER, NEW JERSEY DEPARTMENT OF ENVIRONMENTAL 
  PROTECTION, TRENTON, NEW JERSEY; THE HONORABLE PATRICK SKIP 
 HEANEY, TOWN SUPERVISOR, SOUTHAMPTON TOWN BOARD, SOUTHAMPTON, 
                            NEW YORK

    Mr. Grumbles. Thank you very much, Mr. Chairman. As always, 
it is an honor to appear before the Subcommittee.
    EPA has a lot to be proud of, as do the States and coastal 
communities, in the progress that has been made since the Beach 
Act of 2000, and your Committee has a lot to be proud of too. I 
was here, and I remember the pride that the members took in 
enacting that landmark legislation.
    My testimony today on behalf of EPA is to emphasize not 
just where we have been and what we are currently doing but 
also some of the cutting edge science in the areas where we can 
continue to make progress and to accelerate the progress in 
implementing the Beach Act.
    Mr. Chairman, there are three basic areas in the primary 
focus of our efforts in our clean beaches plan and implementing 
with our State partners, the Beach Act.
    The first is sound science, and there will be a lot of 
conversation in this hearing about the importance of getting 
that sound science foundation as we explore rapid methods and 
identify the best indicators for pathogens so that we can 
continue to make progress. The Agency is committed to 
continuing to invest in the sound science to carry out the 
studies, the epidemiological studies, the other types of 
scientific analyses to get the methods, the rapid methods 
adopted and validated so that we have rapid and reliable 
reporting.
    That leads me to the second principle, the key cornerstone 
of the Act and of the EPA's efforts, and that is awareness, 
public notification. The Act authorized grants from EPA to the 
States for beach water quality monitoring and also public 
notification.
    Then the third important component is pollution prevention, 
and that is where as we all turn our attention to beach water 
quality both in terms of the sound science, the water quality 
criteria and standards and also the public awareness and 
notification, that is where we can also look to the permitting 
programs, the TMDL planning procedures, look upstream and take 
important steps to reduce the amount of overflows, the 
stormwater problems and plan accordingly.
    What I would like to do in the remaining amount of time, 
Mr. Chairman, is to focus on some key areas. Let us not lose 
sight of these important accomplishments. Over the last six 
years, we have seen the number of beaches go from 1,000 to over 
3,500 that are monitored and assessed under the Beach Act. That 
increased monitoring and awareness leads to action.
    Another major accomplishment based on EPA's actions 
pursuant to the Beach Act in late 2004 was that we promulgated 
for 21 States what we viewed as more protective water quality 
criteria and standards to help the progress in moving away from 
the older criteria of fecal coliform to the more important and 
I think protective of public health criteria involving E. coli 
and enterococcus.
    Another major accomplishment has been to increase public 
awareness in this day of information, the information age, and 
the web site. EPA has launched an eBeaches web site with other 
partners, with States. We are all part of this important effort 
so that the public, whether it is through computers or through 
other means, gets a much better sense of the quality of the 
beach water.
    Another major item I want to focus on, Mr. Chairman, is 
getting to the next step, and that is completing our critical 
science research plan. In the next month, month and a half, we 
will complete this important plan. It is based in many respects 
on the unprecedented workshop we had in March where we had 42 
of the Nation's experts including international experts convene 
at EPA's request and identify the key scientific issues to move 
us further to get to the point where we can with confidence use 
these rapid and reliable methods and the best possible 
indicators of pathogens.
    The other major point I want to make is that as we go 
through this science plan and complete it, we are fully 
committed to and we will continue to put a priority on this 
effort with our research office to complete those studies. That 
will also allow us to issue the criteria that was envisioned by 
Congress in the Beach Act, the criteria and standards so that 
we can continue to make progress.
    Then the last point, Mr. Chairman, is that as we focus on 
the sound science, the public awareness and the pollution 
prevention, this is a critically important program to remind 
all of us, State partners and local officials, of the 
importance of controlling stormwater, looking upstream to 
reduce wet weather flows, non-point source pollution and other 
forms that ultimately are contributing to the water quality 
impairments.
    Thank you very much, Mr. Chairman. I appreciate the 
opportunity.
    Mr. Bishop. Mr. Grumbles, thank you very much for your 
testimony.
    We will now move to Commissioner Jackson.
    Commissioner Jackson, welcome to the Committee.
    Ms. Jackson. Thank you. Thank you, Mr. Chairman and Ranking 
Minority Member Baker.
    I just want to speak a few minutes. You heard from my 
Congressman, Frank Pallone, and Congressman LoBiondo about the 
importance of New Jersey's beaches, so I will quickly re-
emphasize the fact that our beaches in New Jersey are a 
statewide, but also we believe a national, treasure.
    Besides the economic impact and tourism industry, I think 
one of the things that I like to talk about is the culture of 
beaches in New Jersey. Clearly, there is an example of beach 
culture here, but for most people in New Jersey we believe part 
of our heritage is our beaches.
    It is true that 30 years ago our cooperative coastal 
monitoring program became a model for what is now the original 
BEACH Act, and we are very proud of that. So I would just like 
to spend a few minutes letting you know how we implement our 
monitoring program in the State because I think there are 
lessons there for how this Act, if implemented, could move 
forward the Country's work with respect to beaches.
    We have 188 ocean and 76 bay monitoring stations, and our 
CCMP enables local health agencies to respond to immediate 
public health concerns during our beach seasons. Luckily, the 
majority of our beach visitors have never seen a beach closed 
sign. However, local beach managers take them very seriously 
not only from the standpoint of notifying the public which is, 
of course, their primarily purpose but also because they 
trigger a series of actions to track down and determine the 
source of any closure.
    The majority of our closures are actually associated with 
one stormwater issue that we are working hard to remedy. It 
will take a bit more time and certainly some more money, but 
the State is aware of what happens around the rec pond area.
    That aside, when we do have closures, we perform sanitary 
surveys in those beach areas to determine and investigate the 
source of any water pollution, and the protocols that have been 
established and followed now for 30 years and improved upon 
over that time allow us to work closely with local and county 
governments to make sure that that is happening.
    In addition, we have for many, many decades now used 
monitoring first by vessels and then later with planes and 
helicopters to actually fly our coast. We do that cooperatively 
with EPA. I think they fly one day and we fly the other six 
days or five days a week. That allows for some amount of 
sampling as well as visual observation of algal blooms or other 
near shore problems that may cause concern and gives us an 
early warning system for our beaches.
    Partial funding for that program has come from BEACH Act 
grants.
    We certainly support the legislation sponsored by 
Congressman Pallone. Our Senator Lautenberg is also supportive 
of it in New Jersey for a few reasons.
    You heard about the need for enhanced funding. As much as 
work as we do in New Jersey and while we appreciate our BEACH 
Act grants, we could and would do more if we had additional 
funding. Our beaches are important enough to us that we have 
already made State funding available through the sale of shore 
license plates which brings in over $200,000 to augment our 
BEACH Act work.
    We would also improve tracking of pollution sources. I 
think that that is probably one of the most important parts of 
the reauthorized BEACH Act being proposed. We have been limited 
because of funding in our ability to do a number of trackdowns.
    We have done some successfully, applying microbial source 
tracking techniques such as viral coliphage, antibiotic 
resistance testing and the use of optical brighteners at 
several locations around the State with very, very impressive 
results and with results that mean fewer beach closings and 
fewer incidents around our beaches. We are pleased that the 
reauthorized BEACH Act would provide funding that would allow 
us to expand that program greatly.
    The rapid test methods, you have already heard about. We 
are proud to work this summer with the U.S. EPA in our region 
to evaluate a method rapid for measuring bacteria in marine 
waters, and we are planning to use our 2008 BEACH Act funds to 
purchase equipment to allow us to do additional testing of that 
rapid test method.
    Timely public notification, although New Jersey prides 
itself on getting results up within an hour of receipt, 
obviously the time it takes to receive them is the critical 
path right now for us.
    So once again I would like to close up by thanking you for 
the opportunity to appear and testify, and I am happy to answer 
any questions.
    Mr. Bishop. Thank you very much.
    We are going to move to Supervisor Heaney. It is not often 
that one gets to introduce one's hometown supervisor to testify 
before a Congressional committee, so if I just may say a word 
about Supervisor Heaney.
    He has had over two decades of experience as an elected 
official in the Town of Southampton, and he has throughout 
those two decades a strong record as an advocate for protection 
and preservation of our natural resources. He has been a member 
of the Southampton Town Board of Trustees, a town councilman, 
and deputy supervisor and now for the last six years, the 
supervisor of the Town of Southampton.
    On this occasion, I would like to thank you, Mr. 
Supervisor, for your service to my hometown, and I anxiously 
await your testimony. Thank you.
    Mr. Heaney. I am happy to be here to represent a typical 
coastal community that can benefit from the ongoing work of 
this Committee. The Town of Southampton is a coastal community 
of 59,000 residents, located approximately 70 miles east of New 
York City, and it is wedged between the Peconic Bay which is 
part of the National Estuary Program and the New York State 
designated South Shore Estuary Reserve.
    These areas provides over 300 miles of shoreline, 19,000 
acres of inland tidal areas and nearly 20 miles of Atlantic 
Ocean coastline beaches. Here, one finds magnificent scenery, 
fishing, farmland, boating, dining, hawks and hiking, trails, 
lush wetlands, bays and creeks. Summer draws hundreds of 
thousands of visitors from all over the world and contributes 
millions of dollars to the local economy.
    Today, thousands of jobs and millions in revenue are 
derived from maritime industries along our beaches and adjacent 
waterways. These waterways also support several thousand sport 
fishermen and commercial fishing fleets at Shinnecock Inlet, 
the second largest in the State of New York with over 50 
commercial trawlers and long liners operating year round. 
Collectively, they produce a dockside value exceeding $16 
million per year and roughly $80 million when one factors in 
economic multipliers.
    Southampton's beaches are our main recreational 
destination. Each summer, our population nearly triples, and 
attendance at public beaches exceeds 370,000 people generating 
almost a million dollars just from seasonal vehicle passes 
alone.
    Beach-goers also put hundreds of millions of dollars into 
the regional economy through boating, swimming, diving, 
shopping, sailing, birding and second home construction. They 
are also a mainstay of the local restaurants, stores and 
service industries.
    In terms of biodiversity, our beaches and estuaries are 
irreplaceable. They support nearly 200 uncommon species of 
animals and plants. These species include Federally threatened 
sea turtles, shorebirds, raptors, offshore whales, rare plants 
as well as nearly 150 species of fish and shellfish vital to 
marine ecology and the economy of our township.
    Pathogen inputs to the Peconic and South Shore Estuaries 
present a significant concern because of potential health risks 
and the economic losses associated with the closure of 
shellfish beds and public bathing areas. Our bays are critical 
spawning grounds for scallops which have sharply declined in 
numbers due to excessive nutrients, low oxygen, contamination 
of shellfish beds and recurring brown tide algal blooms.
    Millions of dollars are being spent by Federal, State, 
county and local governments along with Brookhaven National 
Laboratory and Stony Brook University at Southampton to support 
pathogen management and brown tide research. However, 
additional research and funding is necessary.
    Tremendous advances have been made to improve water quality 
and to safeguard beaches by controlling pollution and pathogens 
from non-point sources such as roadway runoff and boat septic 
wastes, but much more needs to be done.
    Our non-point source pollution education began with the 
passage of Southampton's own Clean Water Bond Act in 1993, a 
funding program that continues to capture runoff from roadways 
that lead to our bays. The town also receives matching funds 
from the State and the county to enact stormwater abatement 
projects along literally hundreds of miles of shore-fronting 
roads.
    Thanks to Federal assistance, Southampton manages a free 
mobile pumpout program to eliminate boat wastes. We operate 
seven boats, seven days a week between Memorial Day and October 
15th each year, and last year we removed close to 100,000 
gallons of septic waste from recreational boats in the Peconic 
and South Shore Bays.
    To further combat the loss of tidal wetlands, Southampton 
also relies on a local community preservation plan that has 
purchased at least 200 acres of beachfront property. These 
initiatives also include water quality monitoring, scallop 
seeding, shellfish population surveys, aquaculture pilot 
programs, residential and commercial fuel tank removal rebate 
programs and restoration of beaches and even eel grass beds.
    Since the collapse of the local bay scallop harvest in 
1985, some local baymen have resorted to growing finfish and 
shellfish in cages and racks out in open clean waters.
    We urge you to continue to act to protect coastal resources 
so that we can continue with these important conservation 
initiatives. Our maritime resources and beaches are crucial to 
maintaining public health, our economy and our recreational 
pursuits.
    On behalf of the residents of the Town of Southampton and 
neighboring communities, I thank each of you for the 
opportunity to speak on behalf of the need to protect coastal 
resources.
    Mr. Bishop. Thank you very much, Supervisor Heaney.
    We will now move to questions.
    Mr. Grumbles, if I may start with you, as you know, the EPA 
missed its deadline for publishing revised water quality 
criteria, mandated by Congress that that deadline be October of 
2005. It is my understanding from your testimony that you are 
now anticipating publishing that criteria by 2012, is that 
correct?
    Mr. Grumbles. That is correct, Mr. Chairman, hopefully 
sooner than that.
    Mr. Bishop. One would hope.
    Mr. Grumbles. The key is to get the science.
    Mr. Bishop. Can you just outline for us briefly why it is 
that the EPA is so far off the mark? This isn't a near miss. I 
mean from 2005 to 2012 is quite a gap.
    Mr. Grumbles. I would be happy to, Mr. Chairman. The first 
thing I would say is that this landmark statute, when it was 
enacted, I think many people recognized that it is the right 
approach, that deadlines in the statute were ambitious and that 
the key principle was to use sound science in order to 
promulgate criteria and standards that were legally defensible 
as well as scientifically defensible.
    So what we have been doing, Mr. Chairman, is we have been 
gathering the data. It has taken quite a long time in the terms 
of interviewing 21,000 or more beach-goers, conducting the 
epidemiological studies and getting the science right on the 
indicators as well as the rapid methods.
    It is an evolving area. The science is evolving, the 
molecular and the biological science. There are a lot of 
complex questions. So, Mr. Chairman, it has taken us time.
    The key to the statute and the success of its 
implementation has been in the collaborative nature of working 
with the States because they are the ones who are truly on the 
front lines in terms of implementing the Clean Water Act 
criteria and standards and the permitting process. So it has 
been taking some time to do that.
    The science has been evolving on the rapid methods but, Mr. 
Chairman, EPA is committed to accelerating the pace and to 
answering key questions that are arising today about the 
quantitative polymerase chain reaction and some of the other 
methods because we know in this litigious world we have got to 
get the science right.
    Mr. Bishop. The current authorization for the BEACH Act is 
$30 million a year. Current funding is about $10 million.
    My question is: Is the fact that the EPA has had difficulty 
meeting this 2005 deadline and now will not meet it until 2012, 
to what extent, if any, is it related to the fact that you 
simply don't have enough people to conduct the analysis and 
issue the findings and if you do not have enough people, to 
what extent is that related to the fact that funding is at best 
case a third of authorized levels?
    Mr. Grumbles. Well, I think the key to effectively carrying 
out, to meeting congressional and statutory deadlines, which we 
always strive to do, is to be able to have a plan under various 
funding scenarios. The plan that we have been operating under 
the last several years, one which Congress has also agreed to 
in terms of appropriating about $10 million each year, is based 
on priorities and on tiering and using risk and other important 
risk management methods.
    I would say that we have the capacity, the current capacity 
to meet the expectations. We are running late on two of the 
nine areas that were identified in the statute, but I think we 
have the partners and also the inside expertise, in-house 
expertise to meet those deadlines.
    The other thing, Mr. Chairman, is that the key question as 
the Committee focuses in on reauthorizing this important 
statute is to keep in mind that the success of it is to stay 
focused and not to open it up into a much broader program of 
broad-scale remediation, I think.
    The Agency hasn't taken an official view on the legislation 
yet, but I think the key is to zero in on the monitoring and 
the public notification and to keep in mind other programs 
under the Clean Water Act and State programs can help implement 
in the pollution prevention steps.
    Mr. Bishop. Let us stay on that point for a moment. H.R. 
2537 would make as an allowable use of funds, tracking the 
sources of coastal water pollution. Did I just hear you say 
that you believe that we should be narrowing our focus as 
opposed to expanding our focus, and if I did hear you 
correctly, what would your reaction be to a statute that would 
allow for a broader use of funds such as to track point sources 
of pollution?
    Mr. Grumbles. I think that the Agency and the States and 
the local officials and stakeholders ought to understand more 
about the precise intent in terms of what those phrases are in 
the legislation.
    What you will find from EPA is support for sanitary surveys 
using beach money for sanitary surveys, we take some pride in 
the fact that we are doing some cutting edge work on that in 
the Great Lakes. It is also happening in other places.
    But, Mr. Chairman, when it comes to the broader beyond just 
the sanitary surveys but the pollution tracking and pollution 
prevention in a broader context, I think it would be very 
helpful for us to get more clarity as to what those broad terms 
are because I think we run the risk of losing momentum if we 
open it up to be a much broader statute beyond what it was.
    I do think that the value of the beaches statute and the 
program that EPA is implementing is that once you do put a 
focus on the science and the monitoring and the public 
notification, then additional funds and resources and partners 
will come in, in the name of pollution prevention and pollution 
tracking, to take steps to reduce the problem so that there 
won't be as many closures or beach advisories.
    Mr. Bishop. Thank you very much.
    Commissioner Jackson, in your testimony, you have indicated 
supporting expanding use of funds to allow for source tracking. 
But under current appropriations, again about $10 million and 
there are 35 States eligible for funding under the BEACH Act, 
that works out to about $300,000 a State, is tracking feasible 
under the current funding? If funding doesn't increase, what 
impediments does that put on the kind of work you are trying to 
accomplish?
    Ms. Jackson. Thank you, Mr. Chairman.
    I believe under the current grant, trackdown work is 
prohibited. So the trackdown work that we currently do, New 
Jersey gets about $280,000 in BEACH Act grant funding, 
certainly not enough but because we pass about 80 percent of 
that on to our counties and municipalities who do the work in 
the field for us. It is important to get that work out to the 
front lines so that you can manage and move forward, I think, 
on science as well.
    But what happens is and I do think it is a State 
prerogative or States are best able to come in when problems 
are found and look more regionally at a problem. So once we 
know we have an issue in terms of monitoring data, we like to 
come in with our staff, and this is where State funds are used 
to come behind that monitoring data and try to track down 
sources.
    If you don't do that work, to me, I think it is an 
incredibly lost opportunity. It is nice to know what is going 
on, and I can't imagine why we wouldn't want to take the next 
step in finding out from a scientific point of view.
    We have done this across regions and sometimes mediated a 
few disputes amongst municipalities about who is causing what 
problems at whose beach. The way to solve that is by actually 
pointing out the problem and making sure it gets fixed, maybe 
using some enforcement authority or 319 authority, sometimes 
some EPA grant money to get it done.
    Mr. Bishop. Thank you very much.
    I just have one more question. Thank you for indulging me, 
Mr. Baker.
    This is for Supervisor Heaney. We know we have been 
fortunate in Southampton that we have not had beach closures in 
the recent past. But can you just briefly give us what you 
would think the implications would be of, let us say, a 
weekend-long beach closure or even a week-long beach closure at 
the height of our tourist season?
    Mr. Heaney. Well, that would be catastrophic for us on the 
local economy. We still have essentially a tourist economy that 
relies heavily on the activity that occurs during the 13 or 14 
week period between Memorial Day and Labor Day although, 
admittedly, we are seeing more and more year-round weekenders.
    But to have a long-term closure of any of our oceanfront 
beaches along the 19 mile stretch that we have would affect 
just about every one of the economic sectors that I pointed out 
earlier in my comments and have a dramatic impact on local 
businesses from the bait shop to the nearby bed and breakfast 
and anyone in between.
    Mr. Bishop. Thank you very much.
    Mr. Baker?
    Mr. Baker. Thank you, Mr. Chairman.
    Mr. Grumbles, is there now identified or approved a 
scientifically accepted methodology for real-time pathogen 
determination?
    Mr. Grumbles. Real-time meaning not just rapid but 
virtually now, getting the information? I think based on the 
expert workshop that we had, the answer is no.
    Mr. Baker. What type of time delay would technology now 
avail us from the standpoint of when the monitoring takes 
place?
    Mr. Grumbles. We are very excited about the promising 
technologies. The molecular methods that involve DNA, as 
Congressmen and witnesses have testified to, it can mean 
getting results in two to three hours as opposed to 24 or 48 
hours. A priority for us is to validate that and see that that 
can work and be accepted throughout the Country.
    We still have some substantial questions, though, 
variability over those emerging technologies or the use of the 
DNA.
    That is, honestly, Mr. Chairman and Congressman, that is a 
focus. A high priority for us is getting those rapid methods 
verified and validated and out into the field throughout the 
Country, not just on a pilot basis.
    Mr. Baker. Is the current best practices scientifically 
acceptable methodology basically the wet chemistry where you 
send it to the lab or is there anything between the two to 
three day wait and real time that is now deployable?
    Mr. Grumbles. Well, I think that there are some in-
betweens. I would also, Congressman, say that our research 
office along with the Water Office, are teaming up and putting 
a significant investment into the research precisely to answer 
the questions you have. I would also suggest that we can 
provide much greater detailed answers to your question for the 
record.
    The technologies are promising. We all agree. I think there 
is consensus that this is where the Country needs to be moving. 
The technologies aren't quite there yet and the science.
    Mr. Baker. If I may, there is a cost-benefit issue 
underlying this. Right now, if the beaches are closed for two 
days, the local community is uncertain as to water quality. 
There is two days worth of revenue lost or foregone because of 
the determination awaiting the chemistry process.
    On the other hand, if we are have as close to real time, 
some sensing device in the water connected to a transponder 
which is going to digitally transform the findings to some 
central location which may require repeater stations because 
you can't have very significant high power off a pole-mounted 
transponder. Then you are going to have to have a data 
collection location which can take those varied sensor readings 
and put that into something usable for the internet user at 
home who is trying to find out can I go to the beach today in 
some form or fashion.
    I don't know quite yet because the technology is emerging 
as to whether or not the cost to the local community who is 
going to have to bear the brunt of establishing these real-time 
reporting mechanisms is greater than the two day cost of the 
current beach closure using the wet chemistry.
    All I am suggesting--and I am sort of indirectly responding 
to the first panel where there was great interest in real-time 
reporting--I am for it, but I think we need to move cautiously 
before we mandatorily deploy any new technologies before we 
understand what cost that represents to local communities who 
are going to be the folks actually paying for the reporting 
methodologies that we are going to dictate by law that they 
must utilize.
    Would it be your view that even if new technologies are 
developed and a community could deploy real-time reporting, 
that it would still be an option for the community to determine 
to use the old methodology as long as they continued to close 
the beach when there was uncertainty?
    Mr. Grumbles. Congressman, I don't know. I have a concern 
as well about locking into requiring EPA to include in the 
Clean Water Act 304 a criteria mandating the use of rapid 
methods at this point or including as a condition on EPA grants 
that Congress appropriates for us to the States that they use 
rapid methods.
    We need to answer some more of the scientific questions, 
and there needs to be certainly in the statute but also in the 
EPA regulations, some degree of flexibility so that as the 
science continues to evolve and the technologies, that the 
States and that the local beach managers can actually use the 
best approach that makes the most sense and actually meets the 
Clean Water Act's goals.
    Mr. Baker. I come at it just slightly differently. I think 
if the protection of the beach-using customer is our goal and 
the community chooses to use the slower and more costly from a 
lost revenue perspective but that is their choice, bathers are 
prohibited from entering the water. They are secure.
    If they choose to deploy the more rapid reporting system, 
which is a convenience to the beach user, however much more 
expensive I would suspect, the beach user is still protected 
because they are getting the benefit of real-time factual 
information.
    But in either event, there is no greater health risk posed 
to the user of the beach. The beneficiary is the choice to the 
local community as to which method they would choose to utilize 
on economic basis. Now that doesn't step to the front of 
safety, but it enables you to preserve safety, using either out 
you want. You can buy a new computer or you can be an old guy 
and get a slide rule. It doesn't matter to me as long as you 
get the answer right.
    What I am saying here is that we get the answer right by 
protecting the user of the waters until we know for certain 
what the condition of the water is when they enter it.
    I yield back, Mr. Chairman.
    Mr. Bishop. Thank you, Mr. Baker.
    We are joined by the distinguished Chairman of the full 
Committee, Mr. Oberstar.
    Mr. Oberstar?
    Mr. Oberstar. Thank you, Mr. Chairman.
    Mr. Baker, thank you for your participation. Always good to 
see you here. Thank you.
    Mr. Grumbles, good to see you back here again. It is a 
familiar place for you on both sides of the table actually. You 
have served this Committee in both capacities and my former 
colleague, Arlen Stanglin. As I recall, you were his 
administrative assistant for a time.
    Over in the corner is the portrait of former Chairman of 
this Committee, John Blatnik, the father of clean water 
legislation, my predecessor in Congress for whom I was 
administrative assistant for 11 and a half years and 
administrator of the Committee staff during the time that he 
was Chairman of this Committee.
    When he took the chairmanship of the Subcommittee on Rivers 
and Harbors, which in fact is the oldest committee of the 
Congress established in 1789--this is just a little free 
history for everybody.
    The first act of the first Congress was that of the Rivers 
and Harbors Committee to authorize the construction and 
maintenance of a lighthouse at Hampton Roads, and the second 
act of the first Congress was to authorize the construction and 
maintenance of a lighthouse at Cape Henry, all for the purpose 
of navigation, linking inextricably our Committee and its work 
with the water transportation and in subsequent years with the 
quality of that water.
    When John Blatnik assumed the chairmanship of the 
Subcommittee on Rivers and Harbors, he took a journey down the 
Mississippi River for the purpose of understanding the 
navigational needs. As he traveled along, he saw the river, 
which starts just outside of my and his district and courses 
through that district, which was clean, beautiful water 
increasingly polluted by the time he got to New Orleans, he 
said there were raw phenols--and he was a microbiologist by 
training--raw phenols being dumped into the water, bubbling and 
boiling and killing everything in its wake. He was appalled.
    He then took a look at the Tidal Basin, the Tidal Basin 
ringed by the cherry trees, and he noted its polluted condition 
and called it the best dressed cesspool in America. We have to 
fix this, and he created the Federal Water Pollution Control 
Act with the support of garden clubs and conservation societies 
and all the fishing and waterfowl hunting groups who wanted to 
preserve our precious resources of fresh water.
    That was 1956, about the same time my late wife was in 
college nearby here at Trinity College. One of her classmates 
went boating on the Potomac, canoeing, and fell overboard. The 
poor child, by the time Jo and I were married many years later, 
still had a skin rash from falling into the Potomac, the same 
river George Washington crossed at one time.
    There are over 180 million people who are close to the 
water. In fact, three-fourths of the population of this Country 
lives along the water, either the saltwater coasts or the 
freshwater or the inland waterways, the rivers and lakes of 
this Country. Water-based activities are a $50 billion a year 
sector of our economy.
    In 1972 in the Clean Water Act, we established a goal of 
fishable, swimmable waters by 1985 which, of course, we have 
not reached. Maybe about 60 percent of the Nation's waters are 
fishable and swimmable, but the goal remains.
    It is astonishing to me that 50 years after the Federal 
Water Pollution Control Act of 1956 and 30 plus years after the 
Clean Water Act that EPA says we really don't know how to 
establish the scientific basis standards for clean water. It is 
not a defensible position.
    I heard you say you want more clarity.
    We have these national research laboratories of EPA. The 
environmental research laboratory in Duluth for freshwater, and 
we have the saltwater research laboratory in Rhode Island. We 
have an additional one at Corvallis, Oregon. We have five 
regional laboratories, two national laboratories. Haven't they 
been useful in establishing standards?
    Mr. Grumbles. Mr. Chairman, as a student of the Clean Water 
Act and of your efforts in the Clean Water Act, I would say EPA 
does know how to establish standards and to identify indicators 
and methods for rapid reporting and reliable reporting. We have 
seen progress, and we have been a very integral part of the 
progress under the Beach Act.
    The great challenge is to do even better which we need to 
do, and that is to move from the 24 or 48 hour methodology that 
results in tests over an extended period of time and to get to 
the point where a two hour or three hour test, something much 
closer to real time, is available and is scientifically and 
legally defensible.
    I think we will get there, Mr. Chairman. We are doing what 
we can, and we will get the support of the academic community 
and other partners as well, but we are at a critical stage.
    The question isn't whether or not we can set standards or 
have the technical know-how to establish criteria and 
standards. It is how do we get to that dramatic improvement for 
pathogens in coastal fresh and marine waters and move to the 
DNA-based, molecular-based methods?
    I just want to clarify that that was the basic message, the 
point I was getting at, that the most important component of 
the Clean Water Act is the standards and then coupling that 
with the enforcement through the permitting program.
    Mr. Oberstar. That is a very thoughtful response, but also 
remember that standards are not intended nor were they intended 
in the 1956 Act or the 1960 amendments or the 1961 amendments 
or the Clean Water Act of 1972 to be a static item. We know 
science advances. We know there is greater capability to detect 
at ever lower, smaller levels, harmful amounts of pathogens in 
the water.
    We also are faced with the warming of waters for a longer 
period of time. The warmer the water, the greater the amount of 
pathogen development and harmful development in that water, 
whether it is the coastal saltwater resources of the Country or 
the inland waterways.
    Lake Superior, for example, with which you are very 
familiar having served Mr. Stanglin, is six degrees warmer than 
its all-time temperature. That is very serious. The lower lakes 
of the Great Lakes also have warmer temperatures which have 
fostered in Lake Erie the development of the viral hemorrhagic 
septicemia, and the sport fishery of Lake Erie is now migrating 
upstream.
    You know these things, and so you take a snapshot today and 
say, all right, let us publish this standard. Then as science 
progresses and you have basis for improving the standards, then 
you move. But don't fail to or shrink from establishing a 
standard because you don't have the very last best, perfect 
scientific evidence.
    I remember John Blatnik, out of frustration in a hearing 
with a group of scientists, sitting there saying, you know, I 
am a scientist too. That was my whole training. Take this test 
tube and say, yes, it is polluted, and then go back and study 
it some more. At some point, we have to take action, and that 
is what legislation is about.
    Mr. Grumbles. Mr. Chairman, if I have permission, I would 
love to submit for the record the report that the Agency has 
compiled based on the expert workshop that was held at the end 
of March. It is on our web site.
    Mr. Oberstar. How many pages is it?
    Mr. Grumbles. It is about 150, I think, 150 pages. It 
raises questions.
    Mr. Oberstar. Is there an executive summary of it?
    Mr. Grumbles. There is an executive summary.
    Mr. Oberstar. I ask unanimous consent, the executive 
summary be included in the Committee record.
    Mr. Bishop. Without objection, so ordered.
    Mr. Oberstar. And the full document received for Committee 
files. I would like to review both.
    Mr. Grumbles. It raises questions not for the sake of 
paralysis by analysis, but the experts throughout the Country 
and there were also some international experts to make sure 
that we make the most sophisticated and responsible decisions, 
taking into account tropical and subtropical waters, varying 
conditions and just that we move forward smartly but that we 
move forward.
    I think it is a good resource for the Agency, and I 
appreciate that you include it as part of the record.
    Mr. Oberstar. I would be happy to receive that, and I look 
forward to reading it myself and will do so in depth.
    I would just conclude by observing that Congressman Bilbray 
felt so strongly about this beach issue. He worried us to death 
when he first introduced this bill, and then he felt so 
strongly about it he ran for Congress and got re-elected to 
come here and make sure it is carried out.
    With that, thank you very much. I want to thank our two 
witnesses, Ms. Jackson and Mr. Heaney, for being here with us 
today and thank you for your contribution.
    Mr. Bishop. Thank you, Mr. Oberstar.
    Mr. Brown?
    Mr. Brown. Thank you, Mr. Chairman, and thank you to the 
witnesses for coming and being with us today, and my question 
is to Mr. Grumbles.
    Mr. Grumbles, I represent South Carolina which is Myrtle 
Beach and Charleston. It is probably about 175 miles of the 
coast, and so this is a special item of interest to us too.
    My first question would be: Has EPA had the same formula in 
place for distributing BEACH Act dollars since the program's 
inception or have you changed your formula?
    Mr. Grumbles. Congressman, thank you for the question 
because it is a subject that we are spending considerable time 
reviewing and revising. In 2002, we issued guidance, 
performance criteria guidance, and we also established a 
formula. So that is the formula that we have been using.
    Prior to GAO issuing a report, which I believe will come up 
in this hearing, we convened a State EPA workgroup to ask 
amongst our State partners should the formula be revised. We 
look at beach miles. We look at beach season. We look at beach 
use. Should we be revising that?
    So we are in the midst of digesting the GAO recommendations 
and also getting further input from our State partners on 
whether and/or how to revise that formula.
    Mr. Brown. If I might just maybe add some input, I am 
curious. Have you taken into account the number of tourists 
that would be visiting those beaches?
    Mr. Grumbles. As I understand it, we do look at one very 
important component is the use by the public of the beaches, 
and that is also an important part in terms of the States, how 
they tier their beaches for monitoring and protection 
activities. It is based on the risk and also use by the public.
    Mr. Brown. Thank you.
    Ms. Jackson, if I might ask, one area where my State is 
facing pressure is the need to expand monitoring in response to 
additional development and beach use along the coast. Has New 
Jersey experienced similar challenges and, if so, what have you 
done to meet those needs?
    Ms. Jackson. Thank you. Yes, New Jersey is the most densely 
populated State, and near a couple of population centers we 
have seen increasing use except in those years when we have a 
beach scare, and those can be extraordinarily expensive and 
take a long time for us to recover from.
    We have spent a lot of State money and local money. We take 
our BEACH Act funding seriously, and we need more of it in 
order to work on a couple of things. The development of rapid 
test methods is something we support. Frankly, our citizenship 
asks for it and is to the point of demanding it. They want us 
to be cutting-edge at the State level and not to wait for a 
rapid test method.
    The other thing that we spent a lot of time and we have 
gotten some funding from EPA that we are grateful for is on 
timely public notification. We pride ourselves in getting the 
results of the monitoring we have up within one hour.
    I spoke earlier about the amount of time and resources we 
spend on source trackdown. Once we find a problem, the State 
thinks it is one of our unique roles to work regionally to find 
the sources of pollution because if it is usually a recurring 
problem. Sometimes it is a one time hit, but often times it is 
a recurring problem, and we have to work across jurisdictions 
to bring a solution to the problem, so we can be done with it.
    Thank you.
    Mr. Brown. I thank you very much for your response.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Bishop. Thank you very much.
    I want to thank our second panel for your testimony and for 
your response to our questions, and we will now move to our 
third panel. Thank you very much, all of you.
    Our third and final panel for the afternoon will consist 
of: Ms. Nancy Stoner, the Director of the Clean Water Project 
of the Natural Resources Defense Council; Ms. Mara Dias, Water 
Quality Coordinator for the Surfrider Foundation; Dr. Mark 
Gold, Executive Director of Heal the Bay; and Ms. Anu Mittal, 
Director of the Natural Resources and Environment Division of 
the Government Accountability Office.
    We will accept your full written statements for the record, 
but we ask that you try to limit your verbal testimony before 
this panel to about five minutes.
    Ms. Stoner, we will begin with you.

   TESTIMONY OF NANCY STONER, DIRECTOR, CLEAN WATER PROJECT, 
  NATURAL RESOURCES DEFENSE COUNCIL; MARA DIAS, WATER QUALITY 
 COORDINATOR, SURFRIDER FOUNDATION, SAN CLEMENTE, CALIFORNIA; 
  MARK GOLD, EXECUTIVE DIRECTOR, HEAL THE BAY, SANTA MONICA, 
  CALIFORNIA; ANU K. MITTAL, DIRECTOR, NATURAL RESOURCES AND 
         ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Stoner. Thank you very much, Mr. Chairman. I appreciate 
the opportunity to testify this afternoon, and I appreciate the 
Subcommittee's interest in beach water pollution and in 
particular in reauthorizing the BEACH Act.
    Americans love to go to the beach, and we are blessed with 
thousands of miles of beautiful beaches, many of which we have 
been hearing about this afternoon, but our beaches are 
threatened by coastal development, by the pollution generated 
by people, the pollution generated as people move into coastal 
areas, which Americans are increasingly doing.
    Development is occurring in the United States at twice the 
rate of population growth and occurring even faster in coastal 
areas. What this generates is sewage pollution, contaminated 
stormwater pollution and the loss of wetlands and soil and 
vegetation that serve as pollution sinks that capture and 
filter pollution in a natural environment. The result is that 
we have human and animal waste in the waters.
    NRDC does a report ever year, called the Testing the 
Waters, on beach water pollution. That report isn't yet 
available for this year, but last year we found that there were 
more than 20,000 beach closings and advisories in the U.S. That 
is not only a threat to the environment and to public health 
but to coastal economies as well. So I am delighted to see the 
interest of the Subcommittee here and of the Chairman, Mr. 
Oberstar, in this issue.
    In 2000, Congress passed the BEACH Act. There are two 
aspects of it that I wanted to mention: funding State and local 
monitoring and public notification programs and requiring EPA 
to update the public health-based standards for ensuring that 
beach waters are safe.
    There has been significant progress in the first component 
of this. Now every coastal State has a beach water monitoring 
and public notification program. There were only a handful of 
such programs before the BEACH Act was passed in 2000. But the 
more monitoring that is done, the more unhealthy beaches we 
find.
    In addition, as we have been discussing, EPA has failed to 
comply with the mandate to update the public health-based 
standards. Those standards are more than 20 years old. They are 
based on even older science. They fail to protect beach-goers 
from the full range of waterborne illnesses, and they do not 
provide adequate protection for children, the elderly and 
others who are most susceptible to getting sick from swimming 
in contaminated beach water.
    There are three particular things that I would like to 
address this afternoon, all of which have been mentioned in the 
hearing already today and all of which are in H.R. 2537, the 
Beach Protection Act, which our Agency strongly endorses and 
appreciates your leadership in.
    The first is faster testing. I have heard a lot of 
indications of support for faster testing, and I believe that 
is necessary and appropriate. I support those provisions in the 
law. It just is unacceptable to have people get information 
about what the beach water quality was a day or two days 
earlier. They need to know when they swim as close as possible, 
as close as we can provide that information on whether the 
water is safe.
    The rapid tests that are currently being piloted in several 
States provide that information in two hours or less. The 
beaches can be monitored early in the morning and posted by, 
say, 10:00 in the morning when most people arrive at the beach, 
so people can know whether the beach is safe when they swim, 
not whether it used to be safe or whether it may be safe in the 
future.
    The second thing is increasing funding for prevention as 
well as monitoring and public notification. This is also in 
H.R. 2537. I think it is really important.
    People want to have a safe beach. They want not only to 
know whether the beach water is safe, but they want to know 
that it will be safe and that they can go to the beach and 
enjoy the beach with their families without being afraid of 
getting sick. In order to do this, we need to identify and 
address the sources of beach water pollution.
    I fully understand and I think the Committee fully 
understands that there are other sources of funding for sewage 
and stormwater pollution. As a matter of fact, I had the 
privilege of testifying before the Committee earlier this year 
on the Clean Water State Revolving Fund, which is one of the 
major sources. That is not what we are trying to address here.
    What we are trying to address here is sanitary surveys, 
source tracking and the immediate sources of beach water 
pollution. Is there trash on the beach that is attracting 
wildlife? Are there other things that could be addressed and 
immediately correct the sources of beach water pollution to 
complement the SRF?
    The third and last point I wanted to make is improved 
communication between environmental agencies and public health 
authorities. A piece of this is in H.R. 2537. Another piece is 
in another piece of legislation that you have sponsored, Mr. 
Congressman, H.R. 2452, the Raw Sewage Overflow Community Right 
to Know Act.
    These two pieces of legislation work together to ensure 
that the beach water managers who know when the beach is 
contaminated are in communication with the environmental 
agencies who have the responsibility of regulating the sources 
of beach water pollution. They both need to know when there is 
a problem, so that it can be addressed.
    I appreciate the opportunity to testify this afternoon, and 
I look forward to working with you as this legislation moves 
forward.
    Mr. Bishop. Thank you very much for your testimony.
    Our next witness will be Ms. Mara Dias who I am proud to 
say is a graduate of Southampton College, an institution that I 
served for a long, long time.
    Ms. Dias, welcome to the Committee.
    Ms. Dias. I would like to thank you, Mr. Chairman, for the 
opportunity to speak and Congressman Baker and the rest of the 
Committee members.
    I as well have brought along a little prop for a history 
lesson. This is a surfboard that was signed by over 100 members 
of the House of Representatives, and on the back there are some 
Senate signatures which just sort of demonstrates the unanimous 
support that the BEACH Act had in 2000 and the real need for 
legislation such as this to keep our beaches clean.
    Surfrider Foundation is a grassroots environmental non-
profit dedicated to the protection and enjoyment of the world's 
oceans, waves and beaches for all people. Surfrider operates 
through a system of over 60 chapters located in almost every 
coastal State.
    Many of our members are in the water daily, so poor water 
quality is a real concern for us. Surfers have unfortunately 
begun to take on the role of the canary in the coal mine as the 
pollution of our beaches becomes more prevalent around this 
Country. Along all of our coasts, surfers and swimmers are 
noticing flu-like symptoms after being in the water, and they 
often turn to us when they believe they have become ill from 
surfing in polluted water.
    The BEACH Act of 2000 is responsible for great improvements 
in beach monitoring, but unfortunately inadequate funding has 
prevented full State implementation and has left the public 
health at risk in many instances. Many State programs are 
understaffed and are unable to meet all of their current 
testing requirements.
    Blue Water Task Force is Surfrider's water quality 
monitoring program. Many of the chapters' Blue Water Task Force 
sampling programs have been designed to fill in the gaps left 
by the State programs. For instance, beach monitoring is 
limited to the summertime only in most cold water States. 
Surfers, however, are in the water year round and even swimming 
is popular well into the warmer fall months.
    Surfrider members in both Delaware and New Hampshire are 
working with their State agencies to extend the beach 
monitoring season beyond summer without adding further 
financial or staff burden to the States. In Delaware, they have 
been collecting samples year round since local surfers got ill 
after surfing in the fall.
    Inadequate funding has also resulted in geographical gaps 
in State programs. In California, some of our volunteers are 
collecting samples from more of the remote beaches and bringing 
them to the county health department for analysis to increase 
their coverage. Because States are forced to prioritize which 
beaches they will sample, they often choose beaches where they 
know there are water quality problems, but this leaves the 
public health at risk at the beaches that are being passed 
over.
    Both in Oregon and New Jersey, Surfrider data have been 
shared with the States to demonstrate new water quality 
concerns, and as a result beaches have been added to the State 
programs that were not previously being sampled.
    If Federal funding were appropriated at the levels 
recommended by the Beach Protection Act of 2000, I believe many 
of the gaps and problems with current State implementation 
could be corrected.
    Surfrider is also supportive of using BEACH Act funds to 
investigate the sources of pollution. When people see the no 
swimming signs, their first question is almost invariably: Why? 
We need to be providing the answer to this question, so that 
coastal communities can take action to correct their water 
quality problems and the signs can be taken down for good.
    Surfrider also agrees that EPA needs to begin approving new 
rapid methods. The long lag time can leave swimmers exposed to 
polluted water, but the opposite is also happening. Many States 
take a very cautious approach and close beaches preemptively 
after heavy rain, not knowing whether the water is polluted or 
not. Then they have to wait to see if it is safe for swimming, 
leaving the beaches closed when it could have been fine.
    This happened just this past holiday weekend in Long 
Island. Heavy rain and thunderstorms on July 4th caused 
preemptive closures at nearly 70 beaches, and that is just in 
Suffolk County alone.
    There are rapid methods available now that the EPA should 
be considering for approval. A sound streamlined process to 
approve these new methods needs to be developed without delay. 
Relying on old methods is putting the public health at risk and 
hurting the economy.
    The GAO has pointed out before that there are many 
inconsistencies in implementation of the BEACH Act, and this is 
certainly the case. The EPA should be taking a strong 
leadership role through the proposed annual reviews to set the 
bar for State implementation.
    In particular, we ask that EPA take a close look at how our 
beaches are being posted. This has been an area of concern for 
many of our members. At Pismo Beach in California, they were 
using cardboard signs that were either getting wet or blowing 
away. This has been corrected since then.
    Additionally, in Corpus Christi, Texas, the city has 
refused to post swimming advisories at beaches even when 
directed to do so by the State program. This refusal seems to 
stem from fears that no swimming signs will drive tourists away 
and hurt the local economy, but Surfrider has been trying to 
educate the city on how issuing swimming advisories can 
actually be protective of the tourism industry and will protect 
the city from certain economic disaster that would occur if 
tourists became ill and the proper warnings were not in place.
    In closing, the Surfrider Foundation would like to thank 
this Committee for listening to the perspective of our members 
who are at the beach and in the water daily. We also urge 
Congress to consider the real costs of running comprehensive 
State beach monitoring programs that are in the best interest 
of public safety, the environmental health of our beaches and 
also the vitality of our coastal economies.
    Mr. Bishop. Thank you very much.
    Dr. Gold?
    Mr. Gold. Thank you.
    My name is Dr. Mark Gold. I am President of the Santa 
Monica environmental group, Heal the Bay. Thank you for the 
opportunity and honor to testify on the BEACH Act amendment 
legislation.
    I have spent over 20 years working on beach water quality 
issues. As background, I was a co-author of the 1995 Santa 
Monica Bay epidemiology study on swimmers in runoff 
contaminated waters. I participated in EPA's experts scientific 
workshop on critical needs for the development of new or 
revised recreational water quality criteria which you have 
heard already from Mr. Grumbles.
    I helped authored California's beach water quality 
standards, monitoring and notification law, probably the 
premier law in the Country, and helped create California's 
Clean Beach Initiative which has allocated over $100 million to 
clean up the State's most polluted beaches in about the same 
timeframe as the Federal Government has only allocated about 
$62 million.
    I helped create Heal the Bay's Beach Report Card which 
provides weekly grades for nearly 500 California beaches on an 
A to F basis based on fecal bacteria densities. What you see on 
the screen is the Beach Report Card and then the next screen, 
just to let you know what it is, that is for Santa Monica Bay 
area and gives you an idea of we are grading more than 500 
beaches on a weekly basis and getting that information out to 
the public on every single Friday afternoon.
    Heal the Bay strongly supports Representative Pallone's 
H.R. 2537 because it provides a substantial and necessary 
funding increase to the program. To date, only $62 million over 
seven years has been made available for this program and the 
results have been predictable.
    Far too many heavily visited beaches are not monitored or 
monitored infrequently and inadequately. Also, in many States, 
the public is ill informed about water quality at their 
favorite beach. A day at the beach should not make you sick, 
but inadequate monitoring and poor public notification could 
lead to millions of swimmers unknowingly exposed to 
unacceptable health risks.
    In addition, Heal the Bay has the following recommendations 
for an amendment to the bill. EPA's 2002 monitoring and 
assessment performance criteria were generic, advisory in 
nature and they were only guidance. So please amend the bill as 
follows:
    EPA shall develop a baseline beach monitoring and public 
notification program that shall be used to determine 
eligibility of States for BEACH Act grant funding. The program 
shall include criteria for which beaches must be monitored 
based on visitorship, proximity to potential pollution sources, 
minimum monitoring frequency, sample collection requirements, 
analytical methods, beach closures requirements for sewage 
spills and public notification requirements. If a State does 
not utilize a program that meets or exceeds this baseline 
program, then they should not be eligible for BEACH Act funds.
    This amendment is critical to ensure that monitoring 
results between States and even counties are comparable. For 
example, currently one cannot compare water quality in Florida, 
New Jersey, Hawaii or California because the programs are all 
so different. Using a metric of number of beach closures or 
postings to compare counties and States only provides 
meaningful information if monitoring programs are comparable.
    Eligibility criteria are commonly used in Federal grant 
programs to ensure high quality projects, and the same 
incentive for effective and protective monitoring and public 
notification programs should occur for BEACH Act funding.
    As you know, the recreational waters criteria development 
requirement for pathogens and pathogen indicators was not met 
by EPA. As a Nation, we are still relying on criteria based on 
epidemiology studies completed in the 1970s. Many studies have 
been completed subsequent to EPA criteria development, and some 
extraordinary studies are going on as I speak.
    Please require EPA to look at the results of all pertinent 
studies completed subsequent to 1985 for criteria development. 
Also, please require the EPA to protect swimmers in freshwater 
and marine waters equally, a major shortcoming in the current 
criteria.
    The most sensitive population of swimmers, children, must 
be protected under the new criteria.
    Also, if the EPA should choose to eliminate an indicator 
for criteria use, like E. coli in freshwater which is something 
they are thinking about, then the Agency must provide 
scientific substantiation for eliminating the criterion.
    Finally, criteria development must take into account 
different sources of pathogens. In the past, the EPA has 
focused on sewage sources in temperate waters. The new criteria 
must take into account differences between temperate, 
subtropical and tropical waters and sewage, urban runoff and 
non-point source runoff such as confined animal feedlots, 
agriculture and septic systems sources.
    All of these recommendations are in the recently released 
experts report you heard about previously.
    In conclusion, despite my strong recommendations on 
improvements necessarily to strengthen the BEACH Act, I do want 
to thank EPA for their efforts on the experts workshop and 
their unbelievable cooperation in providing funding for a 
health effects study in Avalon on Catalina Island that will 
start at the end of this month.
    Congress has a great opportunity to turn a good law into an 
effective law that will protect the health of hundreds of 
millions of swimmers every year.
    Thank you for the opportunity to speak. I am more than 
happy to answer any technical questions that you may have, for 
example, on methods and the like. Thank you.
    Mr. Bishop. Thank you very much.
    Ms. Mittal?
    Ms. Mittal. Mr. Chairman and Mr. Baker, thank you for 
inviting us today to participate in your hearing on the BEACH 
Act.
    Recently, GAO issued a report on the implementation of the 
BEACH Act and the impact that it has had on water quality 
monitoring at some of our Nation's beaches. My testimony will 
summarize the findings and recommendations that were included 
in the report and which underscore many of the points that you 
have already heard today.
    As you know, to accomplish the goals of the BEACH Act, EPA 
was required to implement nine specific provisions. We found 
that EPA has implemented seven of the nine provisions. As a 
result all 30 States and 5 territories with coastal 
recreational beaches now use EPA's water quality criteria for 
beach monitoring, and the public has better information on the 
number of beaches being monitored and the extent of 
contamination at these beaches.
    However, we also found that EPA has not complied with two 
key requirements of the Act. First, it has not completed the 
pathogen and human health studies that were to be done by 2003 
and, second, it has not published the new water quality 
criteria that were required by 2005. As a result, States 
continue to use outdated criteria established in 1986 to 
monitor water quality.
    Because actions on these two provisions are several years 
behind schedule and may not be completed until 2011 or 2012, we 
recommended that EPA provide the Congress with a definitive 
timeline for completing these actions.
    The BEACH Act also authorized EPA to make $30 million 
annually in grants to eligible States and territories. However, 
since 2002, the grant program has only been funded at about $10 
million a year.
    A consequence of this lower funding level is that States 
receive grants that do not reflect their actual monitoring 
needs. In fact, we found that States with significantly greater 
monitoring needs because they have longer coastlines and larger 
coastal populations receive almost the same amount of funding 
as States with significantly smaller coastlines and smaller 
coastal populations.
    This relatively flat distribution of grants across the 
States is due to the combined effect of the lower funding 
levels and the way that EPA applies the grant distribution 
formula. We, therefore, recommended that if funding for the 
program is not going to increase, then EPA should revise its 
formula to provide more equitable grants to the States.
    We also reviewed how some States have used their BEACH Act 
grants and found that these grants have helped increase the 
number of beaches being monitored as well as the frequency of 
the monitoring. Because of this increased level of monitoring, 
States now know which beaches are more likely to be 
contaminated, which are relatively clean and which need more 
resources.
    However, we also identified a number of inconsistencies in 
how often the States conduct their beach monitoring, how they 
take water samples, how they make beach closure or health 
advisory decisions and how they notify the public if they find 
a problem. These inconsistencies could lead to inconsistent 
levels of public health protection across and among States. To 
address these concerns, we recommended that EPA develop 
specific program guidance for the States.
    Although the BEACH Act has helped identify the scope of 
contamination at coastal beaches, in most cases the underlying 
causes of this contamination remain unknown and unaddressed. 
States told us that they do not have the funds to identify what 
is causing the contamination that they now know exists because 
of the BEACH Act and they do not have the funds to take actions 
to mitigate these problems.
    As you already know, BEACH Act funds cannot be used for 
these purposes. Therefore, we recommended that Congress 
consider providing some flexibility to the States to allow them 
to use a part of their BEACH Act grant to identify sources of 
contamination and to take some corrective actions.
    In conclusion, Mr. Chairman, while the BEACH Act has helped 
States improve water quality monitoring, much remains to be 
done if we are to fully protect U.S. beach-goers.
    EPA needs to complete the studies and the new water quality 
criteria that were required by the Act. The program needs to be 
fully funded or the grant distribution formula needs to be 
revised. Inconsistencies in States' monitoring programs and 
notification programs need to be resolved, and funding is still 
needed to address sources of contamination.
    This concludes my prepared statement. I would be happy to 
respond to any questions.
    Mr. Bishop. Thank you very much.
    We will now move to questions.
    Ms. Stoner, let me begin with you.
    It was 1998 when this Committee last held hearings on the 
issue of beach water quality. At that time there was near 
unanimity that the water quality criteria standards that were 
currently in place were inadequate, and it was for that reason 
that the BEACH Act directed the EPA to update these standards 
before 2005. We now know that we won't be getting an update 
until 2011 or 2012 which I find shocking, frankly, but that is 
what we have been told.
    I understand that the NRDC agrees that these standards are 
in need of updating and revision. Can you indicate why you feel 
the current standards are inadequate and what specifically 
needs to be addressed by any new standards that the EPA may 
promulgate?
    Ms. Stoner. Yes. Thank you for that.
    One thing to mention is that we, of course, brought an 
action against EPA, NRDC did, about a year ago to ensure that 
the Agency complied with the requirements of the BEACH Act, 
which we think are necessary and appropriate.
    Dr. Gold mentioned a number of the deficiencies in the 
standards. One of them is really that they were based on 
epidemiological studies focusing on sewage influenced beaches 
and focusing on gastroenteritis. So they haven't looked at the 
full range of sources that cause beach water pollution, the 
largest known source of which is actually contaminated 
stormwater, and that is one of the very important things that 
they do updating the standards.
    They also haven't looked at all the different kinds of 
ailments associated with swimming in contaminated beach waters: 
respiratory illness, earache, pink eye, even very serious 
ailments, encephalitis, meningitis and so forth.
    So we would like the standards that will protect the public 
from the full range of illnesses and, as was mentioned earlier 
by several witnesses, provide sufficient protection to ensure 
that small children and elderly people, pregnant women, others 
who are most likely to get seriously ill can swim safely at the 
beach.
    Mr. Bishop. Thank you.
    One other question for you Ms. Stoner: There has been broad 
agreement among the panelists this afternoon, with the possible 
exception of the EPA, that allowing source tracking to be an 
acceptable use of funds is certainly an appropriate and 
reasonable thing to do. Beyond that, what other role can the 
Federal Government take in helping to support State and local 
agencies to engage in this pollution source tracking?
    Ms. Stoner. Well, I think it is important to increase the 
authorization and to, of course, appropriate the funds for 
source tracking, sanitary surveys and other corrective actions 
to address the sources of beach water pollution.
    If there is a stormwater pipe discharging near the beach, 
if there is a way to have it discharged into a wetland, if 
there is a bath house that is leaking sewage, those kinds of 
things are very important to do again to complement the other 
sources of funding that Congress provides.
    Of course, the House has passed the reauthorization of the 
Clean Water State Revolving Fund. I certainly hope the Senate 
follows suit in that. I would like to see that fully funded as 
well. All of those sources of funding to municipal entities, to 
local utilities are very important in working with communities, 
assisting communities in addressing the sources of beach water 
pollution which, of course, is the ultimate goal_to have 
beaches that are clean and safe for everyone.
    Mr. Bishop. Thank you.
    Ms. Dias, beaches are required to developed public 
notification methods, but there is no uniformity with respect 
to the methods that they use or the guidelines that would guide 
their notification. Do you believe that there should a Federal 
standard that all States should follow and, if so, what are 
your thoughts on what that standard would be?
    Ms. Dias. I think there needs to be a Federal standard both 
for the notification but also for the decision that is made 
because some States close beaches, some States don't close 
beaches. Some States issue advisories and if there is an 
advisory posted, someone can still go in the water, so that is 
another inconsistency.
    On notification, yes, I definitely like what is proposed in 
H.R. 2537 about decisions should be made within 24 hours. I 
think that is certainly the least that we could be doing.
    Mr. Bishop. Thank you.
    Dr. Gold, same question to you.
    Mr. Gold. Well, I would just add to that and say the fact 
that there be any discretion whatsoever on a sewage spill, if 
you have raw sewage getting to the beach, the discretion should 
be lost for any public health officer. It should just be an 
automatic closure. It is very, very well known what the health 
risks are for exposure to raw sewage, and so that would be 
something that I think would help dramatically.
    Twenty-four hours, I think is absolutely critical in that 
regard.
    How they do public notification from the standpoint of 
making sure that there is a 1-800 hotline, that there is some 
sort of web site information plus also point of access at the 
beach. I think those are all critical.
    I would still leave discretionary, believe it or not, on 
the issue of whether or not you have high bacteria counts and 
you close or post a beach. Our organization has really taken 
the tack that that is a public right to know issue as much as 
anything else. If the public wants to take a risk of going in 
the water and swimming or surfing because the waves are great 
that day and they are willing to do that, they shouldn't be 
kicked out of the water.
    If you can imagine, it is pretty difficult to kick people 
out of the water, but in the event of a raw sewage spill, all 
bets are off and there should definitely be people removed from 
the water.
    There were a couple of other questions that were asked 
earlier that were technical of EPA that I have answers to. I am 
not sure if you are interested. Everything from how quickly the 
methods can provide information, some of the cost information 
that was being asked before, and I am not sure if this is a 
good time or place to do that.
    Mr. Bishop. If you could submit those for the record, we 
would be very grateful.
    Mr. Gold. Okay.
    Mr. Bishop. Thank you. Thank you very much.
    Ms. Mittal, is that correct?
    Ms. Mittal. Yes, that is fine.
    Mr. Bishop. Thank you.
    The GAO recommended that the EPA establish a definitive 
timeline for completing the studies that are outstanding on 
pathogens and their effect on human health. What was the 
Agency's reaction, if any, to that recommendation?
    Ms. Mittal. The Agency did concur with our recommendation. 
They said they would develop an action plan and provide a 
definitive timeline.
    Mr. Bishop. Okay. Thank you very much.
    Mr. Baker.
    Mr. Baker. Thank you, Mr. Chairman.
    It seems as though before we go to requiring communities to 
have real-time reporting, Mr. Chairman, we ought to at least 
get the EPA on real-time reporting. It would seem like a 
logical first step.
    Ms. Mittal, in the concluding remarks of your prepared 
testimony, you made reference to flexibility at the community 
level to perhaps take action to cure an identified 
contamination source.
    As Dr. Gold was talking, if there is clear, convincing 
evidence, immediate action is necessary, but that doesn't stop 
the problem. You need resources to go fix it.
    Can you describe for me a little bit more clearly in the 
current program, what flexibility you have in mind with that 
recommendation?
    Ms. Mittal. Sure. What we heard over and over again from 
the beach managers we talked to is that the BEACH Act grants 
have allowed them to identify that there is a problem with the 
water quality.
    Because they are doing more monitoring, they know there is 
a reoccurring problem, but the current grants do not allow them 
to go and use a little bit of that money to find out what is 
causing the problem. A very few localities actually have their 
own resources to go and identify what is causing the problem 
that is leading to the contamination, and so what we 
recommended was that within certain guidelines.
    We don't want to divert all of this funding. Monitoring is 
very important, and the BEACH Act has been very successful in 
establishing these monitoring programs. So we don't want the 
communities to divert all the monitoring funds to now just 
going and either identifying sources of problems or 
remediating.
    We want them to use within certain guidelines, within a 
certain amount of money, maybe just a small portion of it, and 
we thought that EPA could provide the guidelines for when that 
would be appropriate and use some of their money when they know 
there is a recurring problem to identify what is causing the 
problem and then maybe take some limited remediation actions.
    What we heard from the communities that we talked to is 
often times the solutions are very simple. They just don't have 
the resources to identify what is causing the problem and how 
to fix it.
    Mr. Baker. That would get to my sort of follow-up question. 
It would be fairly easy, I would think, to have some sequential 
triggering steps. For example, it is repetitive. It is coming 
from a specific geographic location. The contamination is above 
a certain unacceptable amount.
    Then you could provide out of the funds a basic match for 
which the locality or State or responsible jurisdiction would 
have to put up the other money. They don't get quite as much as 
bang for their buck out of that side, so there is a natural 
financial incentive to spend it on monitoring. But if it is 
really bad, you have got to assume localities are acting in 
good faith. They are not going to move that money for a remedy 
or identifying a remedy unless there is a real high need or 
justification.
    I think that sort of premise should run through this whole 
program.
    Again, with due respect to the experts about the 
availability of real-time reporting methodologies and the 
pilots which may be underway, until we have scientifically 
valid methodologies where we know we are not going to be having 
downtime. The worst thing about having new technologies is the 
wet chemistry may be three days. If the system goes down, you 
may be out for quite a while longer.
    So reliability and scientific validity, I think, must 
precede what broad-based deployment. In the interim, allow 
communities to have flexibility to make the choice they believe 
best for protecting the most number of users in their 
communities.
    I am not suggesting we shouldn't protect people. I am 
saying we should our best and highest judgment in how to deploy 
very limited resources in the most effective manner possible.
    Thank you very much. I yield back.
    Mr. Bishop. Thank you very much.
    This brings our hearing to a close. I thank you for your 
testimony and thank you for all of your work on this very 
important effort. Thank you.
    [Whereupon, at 3:47 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T6690.006
    
    [GRAPHIC] [TIFF OMITTED] T6690.007
    
    [GRAPHIC] [TIFF OMITTED] T6690.008
    
    [GRAPHIC] [TIFF OMITTED] T6690.009
    
    [GRAPHIC] [TIFF OMITTED] T6690.010
    
    [GRAPHIC] [TIFF OMITTED] T6690.011
    
    [GRAPHIC] [TIFF OMITTED] T6690.012
    
    [GRAPHIC] [TIFF OMITTED] T6690.013
    
    [GRAPHIC] [TIFF OMITTED] T6690.014
    
    [GRAPHIC] [TIFF OMITTED] T6690.015
    
    [GRAPHIC] [TIFF OMITTED] T6690.016
    
    [GRAPHIC] [TIFF OMITTED] T6690.017
    
    [GRAPHIC] [TIFF OMITTED] T6690.018
    
    [GRAPHIC] [TIFF OMITTED] T6690.019
    
    [GRAPHIC] [TIFF OMITTED] T6690.020
    
    [GRAPHIC] [TIFF OMITTED] T6690.021
    
    [GRAPHIC] [TIFF OMITTED] T6690.022
    
    [GRAPHIC] [TIFF OMITTED] T6690.023
    
    [GRAPHIC] [TIFF OMITTED] T6690.024
    
    [GRAPHIC] [TIFF OMITTED] T6690.025
    
    [GRAPHIC] [TIFF OMITTED] T6690.026
    
    [GRAPHIC] [TIFF OMITTED] T6690.027
    
    [GRAPHIC] [TIFF OMITTED] T6690.028
    
    [GRAPHIC] [TIFF OMITTED] T6690.029
    
    [GRAPHIC] [TIFF OMITTED] T6690.030
    
    [GRAPHIC] [TIFF OMITTED] T6690.031
    
    [GRAPHIC] [TIFF OMITTED] T6690.032
    
    [GRAPHIC] [TIFF OMITTED] T6690.033
    
    [GRAPHIC] [TIFF OMITTED] T6690.034
    
    [GRAPHIC] [TIFF OMITTED] T6690.035
    
    [GRAPHIC] [TIFF OMITTED] T6690.036
    
    [GRAPHIC] [TIFF OMITTED] T6690.037
    
    [GRAPHIC] [TIFF OMITTED] T6690.038
    
    [GRAPHIC] [TIFF OMITTED] T6690.039
    
    [GRAPHIC] [TIFF OMITTED] T6690.040
    
    [GRAPHIC] [TIFF OMITTED] T6690.041
    
    [GRAPHIC] [TIFF OMITTED] T6690.042
    
    [GRAPHIC] [TIFF OMITTED] T6690.043
    
    [GRAPHIC] [TIFF OMITTED] T6690.044
    
    [GRAPHIC] [TIFF OMITTED] T6690.045
    
    [GRAPHIC] [TIFF OMITTED] T6690.046
    
    [GRAPHIC] [TIFF OMITTED] T6690.047
    
    [GRAPHIC] [TIFF OMITTED] T6690.048
    
    [GRAPHIC] [TIFF OMITTED] T6690.049
    
    [GRAPHIC] [TIFF OMITTED] T6690.050
    
    [GRAPHIC] [TIFF OMITTED] T6690.051
    
    [GRAPHIC] [TIFF OMITTED] T6690.052
    
    [GRAPHIC] [TIFF OMITTED] T6690.053
    
    [GRAPHIC] [TIFF OMITTED] T6690.054
    
    [GRAPHIC] [TIFF OMITTED] T6690.055
    
    [GRAPHIC] [TIFF OMITTED] T6690.056
    
    [GRAPHIC] [TIFF OMITTED] T6690.057
    
    [GRAPHIC] [TIFF OMITTED] T6690.058
    
    [GRAPHIC] [TIFF OMITTED] T6690.059
    
    [GRAPHIC] [TIFF OMITTED] T6690.060
    
    [GRAPHIC] [TIFF OMITTED] T6690.061
    
    [GRAPHIC] [TIFF OMITTED] T6690.062
    
    [GRAPHIC] [TIFF OMITTED] T6690.063
    
    [GRAPHIC] [TIFF OMITTED] T6690.064
    
    [GRAPHIC] [TIFF OMITTED] T6690.065
    
    [GRAPHIC] [TIFF OMITTED] T6690.066
    
    [GRAPHIC] [TIFF OMITTED] T6690.067
    
    [GRAPHIC] [TIFF OMITTED] T6690.068
    
    [GRAPHIC] [TIFF OMITTED] T6690.069
    
    [GRAPHIC] [TIFF OMITTED] T6690.070
    
    [GRAPHIC] [TIFF OMITTED] T6690.071
    
    [GRAPHIC] [TIFF OMITTED] T6690.072
    
    [GRAPHIC] [TIFF OMITTED] T6690.073
    
    [GRAPHIC] [TIFF OMITTED] T6690.074
    
    [GRAPHIC] [TIFF OMITTED] T6690.075
    
    [GRAPHIC] [TIFF OMITTED] T6690.076
    
    [GRAPHIC] [TIFF OMITTED] T6690.077
    
    [GRAPHIC] [TIFF OMITTED] T6690.078
    
    [GRAPHIC] [TIFF OMITTED] T6690.079
    
    [GRAPHIC] [TIFF OMITTED] T6690.080
    
    [GRAPHIC] [TIFF OMITTED] T6690.081
    
    [GRAPHIC] [TIFF OMITTED] T6690.082
    
    [GRAPHIC] [TIFF OMITTED] T6690.083
    
    [GRAPHIC] [TIFF OMITTED] T6690.084
    
    [GRAPHIC] [TIFF OMITTED] T6690.085
    
    [GRAPHIC] [TIFF OMITTED] T6690.086
    
    [GRAPHIC] [TIFF OMITTED] T6690.087
    
                                    

</pre></body></html>
